CERTIFICATE OF SERVICE
No. TBD
Francisca Guillen, Individually and as Class Representative
Petitioner(s)
v.
Dollar Tree Stores, Inc.
Respondent(s)
STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say under penalty of perjury:
That. I. am over the age of 18 years and am not a;party to this action. I am an employee of
the Supreme Court PreSs, the preparer Of the docurnent,A.N;ith'maiiing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the
FRANCISCA GUILLEN, INDIVIDUALLY AND AS CLASS REPRESENTATIVE PETITION FOR WRIT OF
CERTIORARI, by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Elena R. Baca
Paul Hastings LLP
515 S. Flower Street, 25th Floor
Los Angeles, CA 90071
(213) 683-6000
elenabaca@paulhastings.com
Counsel for Dollar Tree Stores, Inc.

Dan Abramovich
July 29, 2019
SCR Tracking: Brooks-1230 Rosecrans Avenue, Suite 200-Cover White

